WAIVER
Supreme Court of the United States
No. 20484
Jamel Ellerbee

v.

(Petitioner)

Annett Holdings, Inc,, dba TMC
Transportation, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court,
Please check the appropriate boxes:
o

Please enter my appearance as Counsel of Record for all respondents.

Of There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Annett Holdings, Inc., d/b/a TMC Transportation

21 I am a member of the Bar of the Supreme Court of the United States.
El

I am not presently a member of the Bar of this Court. Should a response be requested,
the response X11 be filed by a Bar member.
Signature
Date:

(Type or print) NameAlp
0 Mr.

D
0 Ms.

rs.

0 Miss

Firm Young Moore and Henderson, P.A.
Address P.O. Box 31627
City & State Raleigh, North Carolina
Phone

Zip 27622

919-782-6860

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Jamel Ellerbee
United States Department of Labor

Obtain status of case on the docket. By phone at 202-479.3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

